                                 Closeout for M99020014
0 n ) ~ e b m a r ~1999 we received information from a complainant1who alleged that another
indvidua12had been inappropriately been named as one of three authors on the second
edition of a book.3 She and another person4 had been named as authors on the first edition.
According to the complainant the individual was to receive a percentage of the royalties for
the his work on revising the book in anticipation of the publication of the second edition.
The complainant said he had added material Erom a web page and an additional 45 pages of
material that contained errors, and said that his contributions had no intellectual merit.

 In a subsequent communication the complainant provided additional information about the
 authorship dispute and also alleged that the individual claimed to have an NSF grant. The
materials supplied by the complainant show that her co-author on the first edition and the
publishe? both felt that the individual's work merited authorship on the second edition. All
                                                                                        '

of the authors agree the individual contributed to the second edition. The dispute is about
whether the quality of the contribution merit authorship. This is not a issue of misconduct in
science. Our review of NSF's database showed that the individual was a co-PI of a declined
NSF proposal. The proposal was declined before the authorship dispute arose and does not
appear to have connection to this matter. We determined that NSF did not have jurisdiction
in this matter and closed this inquiry.

Cc: Integrity, IG




                                    Page 1 of 1
